4a
I

2311 Douglas Street L

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B a iefs contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1304

INDIAN RIVER COUNTY, FLORIDA;
INDIAN RIVER COUNTY
EMERGENCY SERVICES DISTRICT,
Petitioners,

v.

UNITED STATES DEPARTMENT OF TRANSPORTATION;
ELAINE L. CHAO, IN HER OFFICIAL CAPACITY AS
SECRETARY OF TRANSPORTATION; DEREK KAN,

IN HIS OFFICIAL CAPACITY AS UNDER SECRETARY
OF TRANSPORTATION FOR POLICY; FEDERAL
RAILROAD ADMINISTRATION; PAUL NISSENBAUM,
IN HIS OFFICIAL CAPACITY AS ASSOCIATE
ADMINISTRATOR OF THE FEDERAL RAILROAD
ADMINISTRATION; AAF HOLDINGS LLC,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF INDIAN RIVER
NEIGHBORHOOD ASSOCIATION AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,

and this brief contains 5904 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 19th day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

_pemeee | Kence. 0. Loos Ondiae-h, hile

i mal Notary Public (/ Affiant 39866
